No. 20-748

In the Supreme Court of the United States
PHI AIR MEDICAL, LLC, PETITIONER,
v.
TEXAS MUTUAL INSURANCE COMPANY, ET AL.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the foregoing brief contains 2,963
words, excluding the parts of the brief that are exempted by Supreme Court Rule 33.1(d)
I declare under penalty of perjury the foregoing is true and correct. Executed on December
31, 2020.
/s Douglas A. Winthrop_____
Douglas A. Winthrop
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
10th Floor
Three Embarcadero Center
San Francisco, CA 94111
(415) 471-3100
douglas.winthrop@arnoldporter.com
December 31, 2020

